<html>
<title> - [H.A.S.C. NO. 111-64]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2010 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-64]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2010

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

         SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE HEARING

                                   ON

      BUDGET REQUEST FOR DEPARTMENT OF THE NAVY AVIATION PROGRAMS

                               __________

                              HEARING HELD

                              MAY 19, 2009

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                  U.S. GOVERNMENT PRINTING OFFICE
56-052                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                   GENE TAYLOR, Mississippi, Chairman
SOLOMON P. ORTIZ, Texas              W. TODD AKIN, Missouri
JAMES R. LANGEVIN, Rhode Island      ROB WITTMAN, Virginia
RICK LARSEN, Washington              ROSCOE G. BARTLETT, Maryland
BRAD ELLSWORTH, Indiana              J. RANDY FORBES, Virginia
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GLENN NYE, Virginia                  THOMAS J. ROONEY, Florida
CHELLIE PINGREE, Maine
ERIC J.J. MASSA, New York
                  Will Ebbs, Professional Staff Member
                 Heath Bope, Professional Staff Member
               Jenness Simler, Professional Staff Member
                  Elizabeth Drummond, Staff Assistant










                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Tuesday, May 19, 2009, Fiscal Year 2010 National Defense 
  Authorization Act--Budget Request for Department of the Navy 
  Aviation Programs..............................................     1

Appendix:

Tuesday, May 19, 2009............................................    35
                              ----------                              

                         TUESDAY, MAY 19, 2009
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
                DEPARTMENT OF THE NAVY AVIATION PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Seapower and Expeditionary Forces Subcommittee.........    10
Bartlett, Hon. Roscoe G., a Representative from Maryland, 
  Seapower and Expeditionary Forces Subcommittee.................     4
Courtney, Hon. Joe, a Representative from Connecticut, Seapower 
  and Expeditionary Forces Subcommittee..........................     1
Taylor, Hon. Gene, a Representative from Mississippi, Chairman, 
  Seapower and Expeditionary Forces Subcommittee.................     7

                               WITNESSES

Architzel, Vice Adm. David, USN, Principal Military Deputy to the 
  Assistant Secretary of the Navy for Research, Development and 
  Acquisition, U.S. Navy.........................................     6
Myers, Rear Adm. Allen G., USN, Director of Naval Warfare 
  Integration, U.S. Navy.........................................     8
Trautman, Lt. Gen. George J., III, USMC, Deputy Commandant for 
  Marine Corps Aviation Programs, U.S. Marine Corps..............     7

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    45
    Architzel, Vice Adm. David, joint with Rear Adm. Allen G. 
      Myers and Lt. Gen. George J. Trautman, III.................    51
    Taylor, Hon. Gene............................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
                DEPARTMENT OF THE NAVY AVIATION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Seapower and Expeditionary Forces Subcommittee,
                             Washington, DC, Tuesday, May 19, 2009.
    The subcommittee met, pursuant to call, at 2:02 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Courtney 
presiding.

 OPENING STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
  CONNECTICUT, SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

    Mr. Courtney. The hearing will come to order. As some of 
you probably noticed, I am not Congressman Gene Taylor from 
Mississippi. I am Joe Courtney, who usually sits much further 
down on the dais up here, from Connecticut. Mr. Taylor had a 
sudden call out of the building and asked me just to fill in to 
get the hearing started, and hopefully he will join us in a 
short period of time.
    And I am very pleased that the former chairman of the 
subcommittee, Congressman Bartlett, is here to make sure I 
don't do anything that will damage the committee's processes.
    Mr. Taylor has prepared an opening statement which he asked 
me to read into the record. And I am going to do that right 
now, and then we will proceed with Mr. Bartlett's opening 
comments.
    Today the subcommittee meets to receive testimony from Navy 
and Marine Corps officials on their aviation programs contained 
in the fiscal year 2010 budget request. Today we have with us 
Vice Admiral Architzel.
    Admiral Architzel. Architzel, sir.
    Mr. Courtney. Architzel, serving as principal military 
deputy to Assistant Secretary of the Navy Stackley of the Navy 
and Marine Corps research, development, and acquisition 
programs; Lieutenant General Trautman, serving as Deputy 
Commandant for the Marine Corps aviation programs; and Rear 
Admiral Myers, serving as the director for integration of all 
Naval Warfare programs.
    Gentleman, thank you for taking time out of your busy 
schedules to be with us. Much like the Department's 
shipbuilding programs, aviation programs of the Navy and Marine 
Corps are not without issues. The most apparent issue is the 
amount of the budget request and the number of aircraft 
requested.
    The aviation budget request for this year is $4.6 billion 
greater than last year's plan for the fiscal year 2010, but the 
overall quantity of planned aircraft purchases has decreased by 
20. Very similar to shipbuilding, the amount of funding 
requested has steadily gone up, but the quantity of aircraft 
purchased has steadily declined.
    I would like to outline the program and policy issues that, 
at a minimum, I would like our witnesses to address. First, the 
primary policy issue that I would like to address is that of 
the strike fighter inventory of the Navy and Marine Corps. Over 
the last three years, all four congressional Defense committees 
have had a steady stream of Navy and Marine Corps witnesses 
testify before them about an impending strike fighter 
shortfall. This shortfall is predicted to peak in the middle of 
the next decade. Right now, current analysis puts that peak at 
243 aircraft in fiscal year 2018, but if you account for the 
accepted risk that each service has informed Congress that they 
are currently incurring, the peak shortage of aircraft climbs 
to 312 in that same year.
    What is more troubling is that it appears that there is a 
disconnect between the Office of the Secretary of Defense (OSD) 
and the Department of the Navy. Officials from OSD have 
recently briefed this committee that there is no strike fighter 
shortfall, but that the totality of strike fighter inventory is 
a matter of analysis in the Quadrennial Defense Review (QDR). 
In other words, OSD has already predetermined the answer and 
now they will use the QDR to build the equation.
    I request that the witnesses explain today what the 
position of the Department of Navy is regarding the strike 
fighter shortfall, and if they are aware of any new analysis by 
the Joint Staff or OSD which would contradict what is 
apparently simple arithmetic; because the last time I checked, 
an aircraft carrier is only worth its weight in gold if it has 
an embarked air wing. In other words, 90,000 tons of American 
sovereignty becomes 90,000 tons of American helicopter 
transportation.
    Next, there are a number of programs, and I know we may not 
have time to discuss all of them today, that are of high 
interest to members of this subcommittee. The first program is 
the F/A-18 Super Hornet, which ties directly with the strike 
fighter inventory discussion. What I would like to understand 
is why the Navy reduced its program request by nine Super 
Hornets in fiscal year 2010 over the predicted request in last 
year's budget. It is our understanding that the program is 
executing very well, on cost target, and on schedule.
    Yet with the Super Hornet line executing well, the Navy and 
Marine Corps have opted to increase their fiscal 2010 Joint 
Strike Fighter F-35 aircraft by two, at an estimated cost of 
$236 million each. I know the Department prefers the advantages 
of stealth, but given the high risk and high concurrency 
regarding the development, testing, and production of the F-35, 
we need to understand at what point that putting combat-proven, 
rubber-on-the-ramp Super Hornets is more advantageous than 
waiting for an experimental aircraft that is behind its 
original schedule by more than two years, over its original 
program budget estimate by more than $65 billion, and has 
already reduced its planned inventory quantity by more than 400 
aircraft.
    The Government Accountability Office (GAO) has noted in its 
most recent F-35 report to Congress that the program office 
estimates an additional $2.4 billion is needed to cover cost 
overruns on the air system and engine contracts and to 
incorporate the one-year extension to the development schedule. 
The prime contractor has already extended the manufacturing 
schedule three times, and due to ongoing manufacturing 
inefficiencies and parts supply problems with its 
subcontractors, has only delivered 3 out of 13 aircraft. Nine 
aircraft should have been delivered by now.
    I would like to understand why the Department wants to 
accelerate F-35 procurement between 2010 and 2015 by purchasing 
28 additional aircraft above its current program of record. It 
is my understanding that F-35 contracts are planned as cost 
reimbursable instead of fixed price, and this magnifies the 
financial risk to the government.
    Has the Department learned nothing from the fiascos of the 
VH-71 program and the Littoral Combat Ship program? The F/A-18 
Super Hornet can be purchased for somewhere in the neighborhood 
of $50 million on a fixed-price contract. For the F-35 the cost 
growth per airframe alone is $38.3 million. I think we have a 
great airframe in the F/A-18 Super Hornet. It is affordable, it 
is multi-mission, and it is flying off our carriers in combat 
today. I would like our witnesses to explain why this committee 
should recommend removing funds from a proven program to 
increase procurement in a developmental program.
    Briefly, I would like to address the VH-71 program. The 
Navy invested over $3.2 billion, received nine test and pilot-
production aircraft, yet was unable to successfully execute 
this program that ultimately was canceled by Secretary Gates. I 
would like to understand what the plan is for the current 
aircraft assets that have already been delivered, what is the 
plan going forward, and how the mistakes of the original 
program will be prevented from happening in the next program.
    I understand the E2-D program may be on the verge of a 
significant Nunn-McCurdy breach. I would ask the witnesses to 
comment on the health of that program.
    Finally, I understand that although the MV-22 has performed 
extremely well in combat operations in Iraq, the aircraft is 
having sustainment issues and unforeseen additional costs 
associated with maintenance. Are there ongoing efforts at 
design changes to address some of these maintenance issues?
    I realize that I have outlined a number of issues facing 
Naval aviation. I believe these are fair concerns and deserve 
an open and public accounting of the costs and benefits of 
these programs. What I am not willing to do is sit by as 
program after program breaks the bank on costs. I have seen 
enough of that in shipbuilding programs. We can no longer 
afford unaffordable programs. I believe it is time to step back 
and build what we know works, make it better if we can, and get 
the capability to the sailor and marine who need it today, not 
10 years from now.
    Again I thank the witnesses for joining us today, and now 
would like to recognize the gentleman from Maryland, Mr. 
Bartlett.
    [The prepared statement of Mr. Taylor can be found in the 
Appendix on page 39.]

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
    MARYLAND, SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

    Mr. Bartlett. Thank you very much. I will read our Ranking 
Member's opening statement into the record. As you will see 
from my line of questioning later, if it were my opening 
statement it would be a bit different.
    Thank you, Mr. Chairman, and welcome to our witnesses. We 
meet this afternoon to receive testimony on Navy and Marine 
Corps aviation programs, which is an area with many challenges. 
Naval aviation has been a major component of our mighty 
military might since World War II. Our ability to project power 
great distances onto shore, from any ocean in the world, has 
been vital to U.S. national security. Our aircraft carriers 
have become a symbol of American diplomatic power and freedom 
and are the heart of our modern Navy. As the saying goes, when 
a crisis arises, the first question on everyone's lips is, 
where is the nearest carrier?
    Unfortunately, our Navy faces a significant strike fighter 
shortfall in the near future. And what good is an aircraft 
carrier without aircraft? Last year the Chief of Naval 
Operations (CNO) testified to a fighter shortfall of 
approximately 125 planes for the Department of the Navy by 
2017. This year, based on an updated analysis, the Navy has 
told Congress that a more realistic estimate is a shortfall of 
over 240 planes. This assumes that the Joint Strike Fighter 
delivers on time and that the Navy will continue to resource 
its carrier air wings with fewer than is called for in the 
National Military Strategy.
    If the Joint Strike Fighter program is like most of our 
programs, it will not deliver on time, and so the real shortage 
will be well over 240 planes. Should the Navy resource to its 
full strike fighter requirement, the shortfall would be greater 
than 300 aircraft.
    What does all this mean? Simple math shows that at least 5 
of our 11 carriers will be without fighter aircraft, or we 
would be forced to severely limit the number of aircraft per 
carrier and available for training. In either case, the 
solution would pose a significant strategic risk.
    I am deeply concerned that this budget actually makes the 
shortfall worse by cutting the number of Super Hornets the Navy 
is buying. Facing a gap of at least 243 planes, the Navy is 
only asking for nine Super Hornets. In a few months, the Navy 
has gone from considering another multiyear procurement of 
Super Hornets to cutting the buy of F/A-18s in half. This makes 
no sense. As I told the CNO last week, we either need more 
planes or fewer carriers. I do not think anyone in this room 
believes that fewer carriers is a solution.
    Unfortunately, as Congress has tried to wrestle with this 
issue, the Department of Defense has refused to obey the law 
and has been anything but transparent. The Department of 
Defense (DOD) has not delivered a report on cost and benefits 
of a multiyear procurement of F/A-18s required by law by March 
1, 2009; not delivered the 30-year aviation plan required by 
law; not delivered a future years Defense program with the 
budget, as required by section 221 of Title 10, United States 
Code; and it has refused to brief Congress on the apparently 
differing estimates on the size of the fighter shortfall.
    Is this the transparency that President Obama promised? 
Does the Department of Defense consider itself above the law? 
Let us be clear. The mere existence of a Quadrennial Defense 
Review does not exempt the Department from fulfilling its legal 
obligations.
    While I understand that the witnesses this afternoon are 
not responsible for these decisions to violate the law, let me 
say at the outset that the Department cannot expect to use the 
QDR as a get-out-of-jail-free card. Our witnesses should 
understand that this committee expects and deserves answers, 
not evasive maneuvers.
    Before closing, let me briefly mention a few other concerns 
that I hope the witnesses will address. First, the development 
and testing of the Joint Strike Fighter remains uncertain. The 
fact that we are already spending billions of dollars to buy 
these planes when we have only completed a fraction of the 
testing deeply concerns me. I believe that we will continue to 
see costs and schedules slips, and am concerned that in a 
constrained fiscal environment we will continue to see growth 
in this expensive program. The Joint Strike Fighter may be a 
great weapons system, but it seems to be the 99 percent 
solution that Secretary Gates said we should avoid.
    I would also like the witnesses to comment on where we 
stand in terms of electronic warfare capabilities today. Are we 
meeting the needs of the combatant commanders? What are the 
Marines doing about electronic warfare? Will the Navy continue 
to provide expeditionary electronic warfare capability on 
behalf of the Air Force?
    There is much work to be done in the area of Naval 
aviation. Let me again thank the witnesses for being here 
today, for the work they are doing for our Nation. Thank you, 
Mr. Chairman, for holding this important hearing. I yield back.
    Mr. Courtney. Thank you, Mr. Bartlett.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 45.]
    Mr. Courtney. We have been joined by Mr. Coffman. Do you 
have an opening statement?
    Mr. Coffman. No, I don't, Mr. Chairman.
    Mr. Courtney. Thank you. Buzzers are going off. There are 
votes. The good news is these are the final votes of the day 
and there are only three.
    Admiral, why don't you submit your remarks and then we can 
take a brief recess for the members to go vote. And we will 
come back, and we should have the rest of the afternoon clear.
    Admiral Architzel. Thank you, Mr. Chairman.
    Mr. Courtney. And again you can have your statements 
entered for the record.
    Admiral Architzel. Sure. Chairman Courtney and Congressman, 
Ranking Members, distinguished committee members, it is my 
honor to appear before you today to discuss the Department of 
the Navy's aviation procurement program. I would like to have 
my written statement submitted for the report.
    Mr. Courtney. Without objection.

STATEMENT OF VICE ADM. DAVID ARCHITZEL, USN, PRINCIPAL MILITARY 
  DEPUTY TO THE ASSISTANT SECRETARY OF THE NAVY FOR RESEARCH, 
             DEVELOPMENT AND ACQUISITION, U.S. NAVY

    Admiral Architzel. As the Department of Navy's acquisition 
lead, we develop and test and acquire our country's Naval 
aviation weapons systems by balancing performance, schedule, 
and cost-effectiveness. The fiscal year 2010 budget supports 
the Navy and Marine Corps' joint forces, capable of meeting the 
wide spectrum of threats to our Nation both today and in the 
future.
    The Department continues the development and low rate 
initial procurement of the F-35 Lightning II and the E-2D 
Advanced Hawkeye, CH-53 Heavy Lift Replacement Helicopter, the 
P-8A Poseidon, unmanned aviation, and new strike weapons 
capabilities.
    We will procure our first full rate production EA-18 
Growler aircraft this year, and continue procurement of the F/
A-18 Super Hornet, the V-22, the T-6B Joint Primary Aircraft 
Training System (JPATS), UH-1 and AH-1 Zulu helicopters, the 60 
Romeo and Sierra helicopters. In total, Navy and Marine Corps 
Aviation will procure 98 tactical and fixed-wing aircraft, 100 
rotary-wing aircraft, and five BT UAVs, for a total of 203 
aircraft with the fiscal year 2010 funding.
    The Navy's acquisition professional workforce, dedicated 
men and women of civilian and military career fields, are 
working to bring the most capable and affordable weapons 
systems to the fleet. By developing new technologies, testing, 
and integration of systems, and the procurement of equipment 
and support of these weapons systems, they execute the funds 
and policies of this budget request. I am proud to represent 
them before this committee.
    The Navy is committed to funding and fielding the Joint 
Strike Fighter as a highly capable fifth generation multi-
mission Strike Fighter. JSF is in the eighth year of its 
design, development, and test program. Three SDD aircraft are 
in ground and flight tests. All F-35 variants are projected to 
meet their respective key performance parameters, or KPPs. The 
F-135 engine has completed 11,300-plus test hours on 16 engines 
through mid-April 2009. Systems integration testing continues 
on plan via flight tests, flying lab, and over 150,000 hours of 
ground laboratory testing. A fully integrated mission-system 
jet flies in 2009.
    I would like to note the good news of the P-8A Poseidon 
acquisition program. We are leveraging the efficiencies of the 
commercial production bulk product Boeing 737 to realize the 
technologically advanced product in a shortened acquisition 
timeline. This aircraft will be delivered only nine years after 
program initiation, and will be both extremely capable and 
affordable.
    In fiscal year 2010, we will procure six Low Rate Initial 
Procurement (LRIP) Lot I aircraft. The program will commence 
flight tests later this year in IOC and fiscal year 2013.
    Another good news story, EA-18 Growler has completed its 
operational tests and is preparing to go before the Defense 
Acquisition Board for product decision later this summer for 
reproduction. We have delivered 16 aircraft to Whidbey Island, 
and are on track for Initial Operational Capability (IOC) in 
September of this year.
    In fiscal year 2010, we will procure 22 production 
aircraft. The E-2D Advanced Hawkeye has completed over 92 
percent of its System Design and Development (SDD) program and 
operational assessment, and currently has two aircraft in 
flight tests that have flown more than 1,000 flight hours. The 
aircraft has already demonstrated that its advanced radar 
delivers three times the range of legacy radar, and provides 
the detection required against the advanced threats of today 
and tomorrow. The program we presented to the Defense 
Acquisition Board for Milestone C decision by the end of this 
month. We need to award a contract for two LRIP Lot I aircraft 
by June 5th to keep this vital program on track.
    We are continuing the vision to meld manned and unmanned 
air systems, or UAS, in the future of tactical air aviation by 
exploring an Unmanned Combat Air System, or N-UCAS, 
technologies and capabilities. Our current demonstration 
efforts include maturing technologies for actual aircraft 
carrier catapult launches and arrested landings, as well as 
carrier-controlled airspace integration, including aerial 
refueling through a hybrid Navy or Air Force refueling system.
    I would like to thank the committee for your continued 
support of the Navy and Marine Corps Aviation, and the 
opportunity to testify before the committee. I welcome your 
questions regarding the Department of the Navy's acquisition 
programs.
    Mr. Courtney. All right. Thank you, Admiral.
    [The joint prepared statement of Admiral Architzel, General 
Trautman, and Admiral Myers can be found in the Appendix on 
page 51.]
    Mr. Courtney. And if the other witnesses have statements, 
we will take them up when we reconvene after the recess. The 
committee stands in brief recess.
    [Recess.]

     STATEMENT OF HON. GENE TAYLOR, A REPRESENTATIVE FROM 
   MISSISSIPPI, CHAIRMAN, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Taylor [presiding]. The subcommittee will come back to 
order. We are now going to hear from Lieutenant General George 
Trautman. Sir.

  STATEMENT OF LT. GEN. GEORGE J. TRAUTMAN, III, USMC, DEPUTY 
  COMMANDANT FOR MARINE CORPS AVIATION PROGRAMS, U.S. MARINE 
                             CORPS

    General Trautman. Good afternoon, sir. Chairman Taylor, 
Congressman Akin, distinguished members, it is a privilege for 
me, as the leader of Marine Corps Aviation, to appear before 
you today to discuss the President's 2010 budget submission. 
Sir, in the interests of time I will truncate my remarks and 
just, if it is all right with you, submit them for the record.
    Mr. Taylor. Without objection, your statement will be 
submitted for the record.
    General Trautman. In both the Chairman's opening statement 
and the Ranking's opening statement, mention was made of the V-
22 and Joint Strike Fighter. If I could, I will just read that 
part of my statement for you.
    First, the MV-22 Osprey. We have just finished the three 
highly successful combat rotations to Iraq. And just last week 
a fourth Osprey squadron sailed toward the fight with the 
Marine Expeditionary Unit that will be deployed for the next 
six or seven months. The Osprey has transformed the way we are 
fighting in a manner akin to the introduction of the helicopter 
in the middle of the last century. We can now project combat-
loaded Marines, soldiers, and special operators from a sea base 
or any forward site deep into the battle space at the speed of 
a KC-130. And we can do it at altitudes above the ground threat 
that has claimed so many helicopters in Iraq, Afghanistan, and 
elsewhere. Then we can land the payload anywhere it is needed, 
just like a helicopter. With its speed, range, and 
survivability, the MV-22 is truly a game changer.
    Another game changer for us will be the F-35B Short Takeoff 
and Vertical Landing variant of the Joint Strike Fighter. In 
the fall of 2012, when the Marine Corps stands up its first 
operational squadron, the VMFA-332, this fifth generation 
stealth aircraft, will begin replacing our F/A-18s, AV-8s, and 
EA-6Bs with a single platform that far exceeds the operational 
capabilities of any of the tactical aircraft being flown today. 
The Joint Strike Fighter gives us the operational agility we 
need to support the Joint Force in the hybrid battles that loom 
on our Nation's bow.
    Most importantly, we intend to leverage the unprecedented 
sensor capability this machine offers for the benefit of the 
entire Marine Air-Ground Task Force, allowing us to accelerate 
the decision cycle and fight smarter than we ever have before. 
Just three short years from now, our operational commanders 
will be able to combine the effects of these two machines, the 
MV-22 Osprey and the F-35 Lightning II, from a sea or land base 
to unleash a tempo, agility, and speed of action that has never 
been possible in the past.
    Regardless of the future threats we will face, our 
unvarying mission remains to be the Marine Corps' aviation 
force in readiness across the full spectrum of combat 
operations. My pride in the accomplishments of our Marines, 
past and present, and the staying power of our military 
families is only exceeded by my confidence that we are properly 
poised to meet our future challenges.
    Thank you for the opportunity to speak with you today, and 
I look forward to answering your questions, sir.
    Mr. Taylor. Thank you very much, General.
    [The joint prepared statement of General Trautman, Admiral 
Architzel, and Admiral Myers can be found in the Appendix on 
page 51.]
    Mr. Taylor. The Chair now recognizes Rear Admiral Allen 
Myers.

 STATEMENT OF REAR ADM. ALLEN G. MYERS, USN, DIRECTOR OF NAVAL 
                 WARFARE INTEGRATION, U.S. NAVY

    Admiral Myers. Good afternoon, sir. Mr. Chairman, 
Representative Akin, and distinguished members of the 
subcommittee, thank you for the opportunity to appear before 
you to discuss Navy Aviation. I would like to submit my written 
statement for the record.
    Mr. Taylor. Without objection, sir.
    Admiral Myers. I am delighted to share this time with my 
colleagues from the Navy and Marine Corps to convey the 
contributions of Navy aircraft in our Armed Forces. Our 
aviation community, comprised of aircraft, ships and weapons 
systems, has proved to be a stabilizing force, with the 
capacity to span the globe.
    If we could take a look back to the days following 9/11, 
just three weeks after the attack, two carriers, the Enterprise 
and the Carl Vinson, were in theater ready to provide 
continuous strikes and close air support. In fact, the 
Enterprise reversed course while steaming out of theater for 
home port. No need to refuel, no need for immediate 
replenishment. That strike group commander, with the best 
trained crews in the world, was ready to respond. Navy carrier-
based F/A-18s provided the first tactical air strikes in 
country. Our response in support of 9/11, Operation Enduring 
Freedom, continues today. In fact, as recently as a few days 
ago, our Chief of Naval Operations cited a statistic that I 
would like to mention, because I believe it bears repeating, on 
the value of our carrier fleet.
    He said a single Navy aircraft carrier provides 46 percent 
of the fixed-wing aircraft sorties in Afghanistan; that one 
carrier provides close air support, airborne reconnaissance, 
and airborne electronic attack to our troops in contact with 
the enemy. By the way, the response time to those troops in 
contact with the enemy is often less than 10 minutes.
    Augmenting the carrier's support for our troops ashore, the 
Navy deploys land-based airborne electronic attack via the EA-
6B. These aircraft conduct critical missions that protect U.S. 
forces and support offensive operations. Is it really any 
wonder that in a moment of crisis we hear the phrase ``Where 
are the carriers?'' Often the first to arrive in response to a 
crisis, a carrier strike group provides credible capability and 
assured access with the speed, agility, persistence, all that 
is needed without the reliance on shore infrastructure.
    Seapower projects persistent combat capability ashore while 
facilitating the building of partnerships, as we have seen in 
our combined task forces at sea, including the Horn of Africa. 
Seapower is disrupting insurgents on land as well as disrupting 
smuggling and piracy at sea.
    Our fixed- and rotary-wing Navy assets have been engaged in 
counterpiracy operations around the Horn of Africa. Last month, 
during the Maersk Alabama incident, the first U.S. military 
asset on scene was a Navy P3. And our helicopters have been 
integral in the apprehension of a number of pirates by 
providing necessary surveillance to locate, track, and 
intercept vessels on behalf of the visit, board, search and 
seizure teams.
    Our carriers and ships remain on station around the world, 
providing presence in other places as well: the Caribbean, the 
Mediterranean, the Pacific, the South China Sea, the Indian 
Ocean, and the Red Sea. Our forces provide the effects ashore, 
at sea, and strengthening relationships and building regional 
stability throughout the area.
    The fiscal year 2010 President's budget maintains our 
ability to meet our wartime needs today and contend with future 
security challenges. The aircraft that are fighting today's war 
are being recapitalized or sustained to ensure relevancy across 
the spectrum of threats. We are thankful to our predecessors 
for investing in programs that we are benefiting from today and 
those that will meet future security challenges tomorrow.
    Our budget continues the development of the F-35, the E-2D, 
the P-8, unmanned systems, as well as new strike weapons 
capabilities. The Department of Navy will produce 98 additional 
tactical and fixed-wing aircraft, 100 rotary-wing aircraft, and 
five Vertical Take-off and Landing Tactical Unmanned Aerial 
Vehicles (VTUAVs), for a total of 203 aircraft.
    I would like to offer my appreciation to this committee. 
Without the committee's tireless devotion and significant 
contributions, the great successes of our force would not be 
possible. We are truly grateful, and thank for the opportunity 
to appear before you. And thank you for your support for what 
you do for us today and what we will do tomorrow. And I look 
forward to answering your questions. Thank you, sir.
    Mr. Taylor. Thank you very much, Admiral.
    [The joint prepared statement of Admiral Myers, Admiral 
Architzel, and General Trautman can be found in the Appendix on 
page 51.]
    Mr. Taylor. The Chair now recognizes the gentleman from 
Missouri, Mr. Akin.

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
 RANKING MEMBER, SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman. And I appreciate your 
all being here today. There have been a number of themes that 
we have heard throughout a series of hearings on where we are. 
And it probably wouldn't surprise you that we would pick up on 
one of those, and that is the situation with the lack of 
aircraft, particularly because of the planes having to be 
retired with over 8,000 hours on them. I understand that the 
10,000 hours doesn't really work, that it costs too much to try 
to take care of changing the different parts that would be 
stressed. So that resulted this year in an estimate of, instead 
of 120-some aircraft shortfall on our aircraft carriers, to 
about 240-some.
    I guess my question is, and everybody is saying, and I 
guess really what they are saying is, give us more time to 
figure this out. But what they are saying is we have got to do 
this quadrennial review. Well, it isn't like this is too 
complicated. We say we are going to have 11 aircraft carriers. 
For a certain brief window we are going to be down to 10. You 
got 44 aircraft on an aircraft carrier. If you are 240-some 
aircraft short, you have got five aircraft carriers with no 
planes on them.
    So my question is, one, first of all, how does that affect 
the number of missions that you have to fly just to practice? 
Because I was watching night landings on these things, and it 
looked to me like that was a pretty tricky business, and I 
would think you would want to have plenty of practice for your 
pilots. And if you have got fewer planes, then I would think it 
would affect your training schedule. That is the first 
question.
    Second question would be, let's say that you can't have 44 
aircraft on an aircraft carrier. Is an aircraft carrier just 
about as good if you have got 20 aircraft so you can split the 
aircraft half and half? If that is not the case--so let's just 
answer those two first questions.
    Admiral Myers. Representative Akin, I would like to take 
the first stab at that. First of all, to go back to your 
numbers, last year in PB 09, I briefed that we were forecasting 
in the later teens, starting in 2016 through 2018, a strike 
fighter shortfall for the U.S. Navy of 69 aircraft, and the 
Department of Navy, 125. That was assuming that all of our 
legacy F/A-18s, the A through D, could get to 10,000 hours. So 
that was sort of a bookend. The other bookend was if none of 
those aircraft got past 8,600 hours, that it would be a 125 and 
243 shortfall.
    Now, that was last year. And what I would like to do is 
talk to you for a few minutes and outline what has changed.
    Mr. Akin. It has got to be pretty short, so just a minute 
or so on it. Just get to the number that----
    Mr. Taylor. Again, I want to remind the Ranking Member that 
as the Ranking Member you have all the time you want.
    Mr. Akin. Okay, I appreciate that. Okay. We will proceed 
then.
    Admiral Myers. Okay. Those were the bookends. And what we 
have discovered since then is that doing the analysis for the 
service life extension has informed us that there are a number 
of areas that we want to be focused on when we open these 
aircraft up, when they go to the depot. So to cut to the end, 
we are not sure exactly what number of aircraft that we are 
going to be able to get through. And the reason we are not 
sure----
    Mr. Akin. Between about 125 and 240; it is somewhere 
between there would be your guess?
    Admiral Myers. We are not sure right now, Representative 
Akin. And the reason is because we are still discovering a lot 
by looking at these aircraft when they go to the depot. We have 
had 39 aircraft that have gone to the depot to date. We thought 
there were about 159 focus areas or areas of interest on the 
airplane. We have got about nine that have come through the 
depot. And what we found is there were 50 additional areas. 
Each airplane is going to be a little bit different. But as we 
go through a three-phase process to determine what the limits 
are on service life extension, we are going to be able to 
refine the technical baseline and understand more.
    Now, currently today, the Navy has--currently has the 
aircraft necessary to fulfill the missions that the Combatant 
Commands (COCOMs) have laid upon us. So we have the aircraft 
that we need today. So the focus is how do we get through the 
next summer? What are the levers that we need to look at to 
understand not only what the strike fighter shortfall is, but 
how to mitigate it. And there are four ways to mitigate it. One 
is to maintain our continued unwavering support for the Joint 
Strike Fighter. Second is to maintain our buys of F/A-18 E/Fs. 
Third is to maintain the funding in terms of logistics for our 
current legacy aircraft, our strike fighters. And fourth is to 
understand how many of these F/A-18 A through Ds we can get 
through the SLAP process. And it is going to take time.
    Now, you had another question about the number 44 on our 
carriers; 44 is the requirement for the Navy for strike 
fighters on our aircraft carriers; 44 represents the number 
that the combatant commanders are expecting when those carriers 
show up overseas to provide the necessary effects for 
everything from contingency ops to major combat operations. And 
it also represents the most effective use of a Nimitz class-
size flight deck. So 44 is the number that is required for our 
aircraft carriers, and that is what we intend to do.
    Mr. Akin. So then following up, you are saying you would 
not deploy a carrier that had significantly number less than 44 
planes on it? You would want to keep that number pretty close 
if you have a carrier that is out. Is that what you are saying?
    Admiral Myers. Congressman, what I am saying is 44 is the 
requirement, and that is what we are basing--from the Navy 
staff and from a programming perspective, that is what we 
program towards.
    Mr. Akin. Okay. But if you had a shortfall, then you are 
saying you would rather have some aircraft carrier left behind 
than to have one with half the planes on it or something. You 
wouldn't consider that probably. Or are you saying you just 
don't know or----
    Admiral Myers. That is a fleet commander decision on 
exactly how he loads out a carrier air wing. We understand the 
requirement. We understand the way that we are deploying ships 
in our aircraft carriers and their air wings today. But how 
that would be done in the future would depend on the needs of 
the combatant commander and the fleet commander. But currently 
the requirement is for 44, and that is what we are doing right 
now.
    Mr. Akin. Right. What I heard you say, though, you gave me 
a lot of detail, but what I heard you say was still the 
shortfall is probably going to be between the 125 number and 
the 243 number, because 243 was worst case. That is assuming 
you can't get any more than 8,600 hours. And the 125 was 
assuming that you could get 10,000 hours. And you are saying 
until you actually look at the planes, you won't know exactly 
how many of them fit into which category, but it is going to 
fall in that number; is that correct?
    Admiral Myers. There is the possibility that some of them 
could fall outside that number. And that is part of the 
analysis, the second phase of the analysis that is ongoing 
right now that Naval Air Systems Command (NAVAIR) is doing and 
working with their depots to understand exactly the extent of 
whether or not it is going to be exactly in that----
    Mr. Akin. In that bracket, even.
    Admiral Myers. Yes, sir.
    Mr. Akin. So you are not even sure of that bracket is what 
you are saying.
    Admiral Myers. The bracket is the best information that we 
have at this moment, but we have still got work to do, 
Congressman.
    Mr. Akin. Now, what would it cost--let's say that you find 
some aircraft that are 8,600 hours and they are going to need 
some repairs. Do we have any idea of what that would cost? My 
understanding was it was prohibitive to do that; that it would 
be cheaper just to get some new ones. Is that true or not 
necessarily or----
    Admiral Myers. It is not necessarily true. What we know is 
that a center barrel costs about 5 million. And a center barrel 
is going to be required on the earlier lot aircraft, meaning 
Lot 16 and earlier. What we know is that the inner wing could 
cost as much as 4- or 5 million. What we know is that the inner 
wing is a focus area of the aircraft that have gone through the 
depot in terms of the additional hot spots or focus. But what 
we don't know is whether or not all of the aircraft that go 
through are going to need all of those repairs. So it could be 
expensive and it might not. And right now that is what the 
second phase----
    Mr. Akin. We don't have a current cost estimate of what it 
would take if we wanted to extend the service life on them. We 
don't really know what that number is is what you are saying. 
It depends on the individual plane. Is that what you are 
basically saying?
    Admiral Myers. Yes, sir. It depends on the plane. We have 
programmed some moneys because we do know about the center 
barrel replacements. And the analysis that will go on through 
the summer and is expected to finish in the March 2010 time 
frame is set to be a Program Objective Memorandum (POM) 12 
issue. And that is the way that we have set up the analysis, to 
feed into POM 12. And that would give us enough time to buy the 
equipment and make sure that we programmed and placed 
everything we need in the depots for the Service Life Extension 
Program (SLEP).
    Mr. Akin. I think the Navy has completed its analysis of 
the benefits of the multiyear procurement of the F/A-18As. What 
is the minimum number of aircraft required to be purchased over 
the contract period that would result in a savings of at least 
10 percent as required by law? Is there some particular number 
that you have got to get? Because we saved, what, a billion 
dollars on that before on the multiyear two?
    Admiral Architzel. Sir, if I could take that question. You 
are correct on the multiyears for the Hornets. There have been 
two. The first multiyear was for 210 aircraft. It resulted in 
about a $710 million savings. That was a five-year program. We 
followed that with a multiyear two, which just ended in 2009. 
That saved about 1.1 billion over the same five-year period. To 
make a multiyear value, we need economic quota quantities, 
which means we have to have volume. We have also got to have a 
length of period of time. It wouldn't do us any good to give 
volume and put it in one or two or three years. We have to have 
some length of time to make that, to get that return on 
investment.
    Sir, to answer your question, if we looked at multiyear 
one, we had a seven-and-a-half- or six-percent savings that 
equates to. Multiyear two, about 11-percent savings. If you 
have those kind of savings, we need to go five years and get 
economic quota quantity buy. We want to have a significant 
savings, which is on the order of 10 percent, or $500 million, 
would be those kind of the ``bookends'' if we are using that 
term here, that we would seek to get in a multiyear 
procurement, sir.
    Mr. Akin. Well, I didn't hear the answer to my question. I 
guess the question is, what number do you have? Let's say we 
are starting 2010 right now.
    Admiral Architzel. Yes, sir.
    Mr. Akin. And let's see, the Joint Strike Fighter (JSF) is 
scheduled to be ready to go at, what, 2015? Are we sure that is 
going to happen on time? That gives you five years, right? 2010 
to 2015.
    Admiral Architzel. Yes, sir.
    Mr. Akin. Let's assume JSF is actually there at 2015, so 
you do have the five years. So what would the number be to get 
to the 10 percent? Have you figured that?
    Admiral Architzel. Sir, let me--fiscal year 2010 is a 
single-year buy of Hornets. As you know, the Growler we put 
into the multiyear for multiyear two. And we were able to take 
advantage of that. With a single year buy, we don't have the 
economic quota quantity to do it. So 2010 is in the books. We 
don't have that ability to incorporate that into a multiyear 
now.
    Mr. Akin. So we are talking 2011 then. 2011 to 2015?
    Admiral Architzel. Yes, sir.
    Mr. Akin. Are you sure that we are going to have JSF in 
2015?
    Admiral Architzel. I know that I can speak to the IOCs we 
have today, which is for the Marine Corps and the Navy, and say 
that on plan we have today we will, sir. I mean we are 
developing those programs to go forward on those timelines. But 
I also will say we will have to wait to find out what the 
Department's direction is on aircraft. We need to know the 
numbers so we can get the economic quantity and time frame 
involved before we can enter into a multiyear. But if we were 
to--the multiyear is certainly something we do aggressively go 
after when we can on multiple programs, as you are aware. The 
V-22 is an example, the 60 Romeos, 60 Sierras. So we do 
definitely want to get multiyears when we have them there.
    Mr. Akin. Man, I am having a hard time getting anything. I 
feel like I am trying to nail JELL-O to a wall, gentlemen. I am 
asking about a time for a multiyear, and you are saying, no, we 
really don't know what the requirements are. I am talking about 
the requirements, I thought we were looking at 125 and then 
243. And now you are saying, yeah, but it could be this other 
way. Somewhere along the line we have got to make a plan as to 
what we are going to do. I mean maybe JSF is going to be there 
in 2015, and that is obviously something that is very 
important.
    I know the Marine Corps has a keen interest in the Short 
Take-off and Vertical Landing (STOVL) version, because you are 
kind of putting all your eggs in that basket, where the 
Harriers, I guess, are getting older and older. But somewhere 
along the line, we have got to be able to do some planning. And 
it seems like no matter how you look at the numbers, you are 
coming out short on fighter planes. So I guess that is the 
reason we are having a hearing is, where are we?
    Admiral Myers. Yes, sir. And Congressman, for the record, I 
just want to correct--the correct number that we should be 
referring to is 69 to 129 for the U.S. Navy. And that is what I 
briefed last year. Those were the bookends of 10,000 hours for 
300 aircraft and 8,600 hours, no aircraft SLEP. So that gives 
you about a 70-aircraft shortfall.
    Mr. Akin. Okay. Let's start with 70. If you had 70 
additional aircraft over a 5-year period, would you get 10 
percent then?
    Admiral Architzel. Sir, I am not trying to be anything but 
direct. As much as I can, from an acquisition standpoint, if we 
were to get to a few things, we need to have an economic quota 
quantity. We need to have an economic rate of production, which 
would--the minimum sustained rate is about 24 aircraft to go 
through. The economic requirement is somewhere between 30 and 
36, depending on the numbers we have. So if you could generate 
on the order of 30 per year for 5 years, you would be able to 
enter a multiyear that would produce 10 percent savings. But, 
sir, that----
    Mr. Akin. You are saying 30 per year. So that would be 150 
then?
    Admiral Architzel. If a scenario of a multiyear, that is 
what would happen, sir. Regardless of what aircraft we are 
dealing with, when you can get those type of quantities and be 
able to produce them to allow economic quota quantity buys over 
a five-year period or some significant period of time, then you 
will definitely get savings in a multiyear. That is the only 
reason we are allowed to enter a multiyear is if we can assure 
significant savings.
    Mr. Akin. Right. So are you saying the minimum you would 
have to buy would be about 150, over 5 years total, in order to 
get that 10 percent?
    Admiral Architzel. Sir, under the scenario you presented 
me, yes, sir; that would be what we would have to do. I would 
say that. But again, I don't set the requirements. This is from 
an acquisition standpoint. You asked me to give you the numbers 
as they apply to a multiyear, and that is what I have done, 
sir.
    Admiral Myers. Yes, sir. And to reinforce Admiral 
Architzel, the requirement is 44 strike fighters on our carrier 
wings. And based upon the President's Budget (PB) 09 data, the 
shortfall for USN is still about 70 aircraft, best case right 
now. But we still have some discovery to do this summer as we 
go through Service Life Assessment Program (SLAP), and we still 
have some levers to pull.
    Mr. Akin. The number was higher because you had Marine 
Corps F/A-18s that you were including also. Is that correct?
    Admiral Myers. What I gave you was an inclusive Department 
of Navy and U.S. Navy number before. The 69-129 is a U.S. Navy 
number. And the 125-243 was a Department of Navy number that 
includes Navy and Marine Corps. And that is what was briefed 
last year. Yes, sir.
    General Trautman. Sir, if I may comment, maybe help with 
the variables that are involved here. First of all, the PB 09 
numbers are no longer relevant to this discussion in my 
opinion. For example, if the program purchases more Joint 
Strike Fighters than we did in PB 09, which it does, the strike 
fighter shortfall would come down by a commensurate number of 
F-35s, both B and C models.
    Secondly, this issue of the Service Life Assessment Program 
and the Service Life Extension Program is very much filled with 
variability at this point. We are partway through phase B of a 
three-phase process of examining these airplanes to decide how 
many of the 623 existing A through D Hornets can be extended. 
Talking to NAVAIR as recently as Friday, there are 
approximately 330 A through Ds which they identify as prime 
candidates to be extended. And so we will extend, bureau number 
by bureau number, making wise business case decisions 
associated with the choices that will have to be made to extend 
those aircraft going forward.
    Mr. Akin. So you say you have identified 130 A through D?
    General Trautman. Three hundred thirty of the 623 existing 
are prime candidates for extension. There are no technical 
impediments to extension at this point.
    Mr. Akin. Sir, are you saying--does that mean you wouldn't 
have to put more money in them, or they would be prime 
candidates to put more money into to get them to 10,000?
    General Trautman. You said it right, sir.
    Mr. Akin. The second time?
    General Trautman. Yes, sir. Put more money into them on a 
case-by-case basis to decide how much would need to be 
extended. But even that has variability. For example, the 
majority of the interest areas are in the center barrel. That 
is the majority of the interest areas. We already have $1.14 
billion in the budget to pay for 417 center barrels to be 
replaced.
    The second most are in the wings. There are options with 
regard to the wings. One is repair. Two is to remove and 
replace. And the Admiral gave you the cost of a new wing. But 
the third is to take wings out of Aircraft Maintenance and 
Regeneration Center (AMARC), which we are doing right now, and 
replace those wings with wings that are essentially free. And 
then the third large area that we are concerned about as we go 
through the assessment program is in the aft end of the A 
through Ds. That is probably where most of the uncertainty lies 
right now with regard to the cost.
    Mr. Akin. Well, I appreciate the Chairman's patience. And I 
will go ahead and wrap up with that. Thank you.
    Mr. Taylor. The Chair thanks the gentleman. And if need be, 
there will be a second round. You have had a great line of 
questioning. The Chair now recognizes the gentleman from New 
York, Mr. Massa.
    Mr. Massa. Mr. Massa has no questions at this time.
    Mr. Taylor. The Chair then recognizes the gentleman from 
Connecticut, Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. In Mr. Taylor's 
opening statement he sort of walked through a number of issues 
that I think he was asking for some responses from the 
witnesses. I think the last item was on the Presidential 
helicopter. He referenced the fact, obviously, that Secretary 
Gates on Friday announced the cancellation of the program. And 
I was just following on his comments. I don't know which 
witness would be appropriate to respond. But you know, what do 
you sort of see as the next steps and the way forward? 
Obviously, we need a new helicopter.
    Admiral Architzel. Yes, sir, Congressman Courtney, let me 
start, and I will turn it over to anyone else. You are correct; 
Secretary Gates did announce, recommend cancellation. And his 
basis for that was the original $6 billion program which had 
headed towards 13 billion, 6 years overdue, does not meet the 
requirements of the White House. And increment one, in fact, is 
a long way to meet that requirement.
    So this has been a very extremely challenging requirement 
in this program, complicated and exacerbated by us trying to 
bring this program to meet a need earlier when we weren't 
really defined what we had to do. There were mistakes that were 
made. We drove significant developmental efforts forward at a 
time when we weren't certain of what those impacts would be. 
And we grossly underestimated the cost and schedule required to 
deliver this.
    As a result of that, Under Secretary of Defense Carter 
directed the cancellation of the program to Mr. Stackley. We 
are taking those initiatives now to cancel that program and 
bring it to resolution. The path forward is within 30 days we 
will come forward with a high-level plan of how will we 
anticipate going forward in the future.
    That is not all the details that go with every facet of the 
program to understand, but it is a high-level, if you will, 
plan of action how we are going to go forward to meet the 
direction. Also to have a program developed so we can do the 
Presidential replacement helicopter program. So in this case I 
believe what we need to do now is we need to meet the 
requirements, we need to understand what those requirements are 
going to be, understand the impacts of those requirements, 
begin with the requirements, take them through to the impacts 
of that, and do the de rigueur we need to do to make an 
executable program, sir. And I will turn it over to other 
comments.
    General Trautman. Let me add then, sir, two things come to 
my mind. First is, are the legacy VH-3s and VH-60s preserved 
and remain safe for carrying our President? And the answer to 
that is yes. And this budget includes the requested dollars to 
make that a reality.
    The second is these airplanes are going to need to be 
replaced. The VH-3 is 40 years old. By 2017, even with the 
Service Life Extension Programs that we are assessing now, they 
are near the end of their life. So I am very anxious to get 
back into the requirements generation process, work with the 
White House Military Office to decide what requirements they 
will lay out, and then help move those requirements up to the 
Joint Requirements Oversight Council and into the acquisition 
community so that we can get started on a new replacement for 
the VH-3 and VH-60.
    Mr. Courtney. Great. And I realize you said 30 days from 
now you will come out with, I guess, a new position or new 
plan. And I don't want to get ahead of that, but one argument 
that has been out there, The New York Times had a column about 
it the other day that we shouldn't cancel because there is so 
much sunk costs already into the VH-71.
    And I guess I was wondering, thinking that through, the 
Navy is not going to just sort of walk away from the research 
and the development and the investment that has already taken 
place. I mean there are some ways to recoup some of what has 
already been paid for. Is that a safe assumption to make, so 
that the taxpayers won't feel like it was just completely 
thrown away?
    Admiral Architzel. Congressman Courtney, if I could, let me 
begin and then I will offer it for my colleagues to comment. 
But, again, first off, what I mentioned to you was a high-level 
comeback, if you will, or plan to go forward. And 
simultaneously with that, we have another course of action we 
have to follow, which is following the cancellation of the 
program, we have to bring about what we do with this program 
and how we bring it to closure.
    So the first thing that was done was, for example, stop 
work to allow the contracting officer to issue actions that 
then would result in us to be able to bring, as I mentioned, 
bring it to closure. That involves understanding all that we 
have invested, and where we are, and be able to close out the 
books; be able to make sure we understand where we are in 
funding, be it 2009 or 2010 funding, et cetera, to what we need 
to do to follow through once the contracting officer takes 
actions on a termination, as it be.
    So understanding what we want to do in the future, 
obviously we will take advantage of anything we can from a 
technology standpoint that would go into future helicopter 
programs or other programs of similar nature.
    Admiral Architzel. Again, as we start back in this program 
we have to understand the requirements. We have to begin with 
the requirements, understand what they mean, and what we have 
to do to meet those missions that is set in front of us. And 
that was fundamental to it.
    But to your point, the investments that were made and the 
understanding the technology investments that were ongoing 
certainly we will take advantage of that to go forward.
    Mr. Taylor. The Chair thanks the gentleman. The Chair 
recognizes the gentleman from Maryland, Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    You know, you would think from the discussion we have been 
having that we hadn't spent $3.2 billion and a number of years 
building the 71. In the original requirements document for the 
VH-71 program, the Navy gave a litany of reasons why the legacy 
fleet was in urgent need of replacement. So urgent that we were 
working around some of the usual procedures to get a plane more 
quickly so the President could have it. The planes the Navy 
said was overweight. They lack all-weather capability. They 
have extremely limited range speed and payload. And I quote 
from the document. The legacy aircraft is no longer capable of 
implementing upgrades for mission requirements.
    And now, we are told that the current fleet is okay; that 
it can indeed be upgraded; that the cost of doing so will 
likely might be enormous. We have already spent $3.2 billion to 
produce the nine Increment 1 helicopters. They meet or exceed 
their performance requirements. They were always intended to 
fly the Presidents. Why isn't it reasonable that Congress would 
expect the Navy to field these aircraft to meet the highly 
urgent need we have been briefed on for years? But instead, 
Congress has been given a list of reasons why flying the 35-
year-old legacy fleet for another decade is preferable to 
fielding the modern VH-71 helicopters we have already paid to 
produce.
    For instance, we are told that Increment 1 only has a five-
year service life, even though the committee knows that it was 
designed for a minimum of 30 years and that the Navy has not 
even performed a basic air frame fatigue testing to make a 
sound determination. We need real answers as we consider the 
budget request.
    Frankly, Congress has been ignored for too long on this 
critical program, and I am concerned that in the stop work 
order we are now being ignored.
    The Navy said that we needed a new aircraft to fly the 
President. We bought that. We asked the Navy to build that 
aircraft. And now, without coming back to the Congress for 
consultation, the Navy has issued a stop work order.
    This very limits our options, because there will be cost 
involved with the stop work order if we decide that we really 
ought to continue building these planes, and there is 
additional costs involved in making the line hot again.
    First, what is the estimated cost of extending and 
maintaining the current legacy fleet if VH-71 is terminated? 
How much will it cost to provide service life extension for the 
current fleet? And, what kind of new improvements will be made 
and at what costs? We were previously told that we really 
couldn't make the necessary improvements, which is why we 
needed a plane so urgently that we were bypassing some of the 
usual procurement procedures.
    And, second, are you telling this committee that the 
Increment 1 helicopters did not in fact provide a better 
overall capability than the current VH-3?
    General Trautman, you have flown the VH-71. Would you not 
agree that, on its own, it represents a more capable, modern, 
and safer aircraft?
    General Trautman. Yes, sir. Let me start. I have flown both 
the VH-3 and the VH-71 Increment 1 aircraft recently, and there 
is no doubt that the VH-71 Increment 3--Increment 1 aircraft is 
a better aircraft than the VH-3.
    The challenge has been, sir, that the VH-71 Increment 1 
aircraft does not meet the requirements that were passed to us 
by the White House Military Office. And----
    Mr. Bartlett. General, if you would let me interrupt for 
just a moment. We know that. We know that the Increment 1 was 
designed to provide what we were told was essential 
transportation for the President while Increment 2 is being 
developed. We know that Increment 1 is deficient in--of little 
deficient in payload capability, in speed, and in how far it 
can go in range. But the essential reason we were told for 
moving away from the current fleet was to have better 
communication capacity we understand VH-71 provides the 
Increment 1.
    Mr. Chairman, in just a moment, I would like to go through 
some numbers that I think are absolutely compelling that we 
ought to continue. We have now invested $3.2 billion. If we now 
shut down, it is going to cost about half a billion in the 
industry to shut down. It is going to cost about a tenth of a 
billion in the Navy to shut down. And for another $1.3 billion, 
we could make ready five of the nine planes so that the 
President could use them. And I am told by the manufacturer 
that, for roughly $100 million each, which comes well under the 
original figure of $6.8 billion, that they will enter into a 
firm fixed price contract to deliver another 14, which means we 
would have a total fleet then of 19 planes.
    The additional cost to provide 19 planes is small compared 
to the investment we have already made. Why isn't it in the 
taxpayers' and the President's best interest to go ahead and 
provide these extra planes? We will have essentially nothing if 
we simply terminate and shut down.
    Mr. Taylor. If the gentleman would answer the question, 
please.
    Admiral Architzel. Congressman Bartlett, if I could. Part 
of your what your discussion is on the Increment 1, as I 
mentioned before, this VH-71's extremely challenging 
requirement shows significant development efforts that were 
grossly underestimated. And, on top of that, we went to a two-
increment approach in an effort to deliver near-term as well as 
long-term solutions.
    Sir, we are not delivering on the capability of the 
Increment 1. The program does not meet the requirements. And 
that was what the recommendation for cancellation was for.
    Mr. Bartlett. But, sir, if I might interrupt for just a 
moment. It was going to be sufficiently superior to the present 
fleet that it was deemed desirable to spend the money to 
produce it and to use it for five years while we produced 
Increment 2. Why isn't that analysis still valid?
    Admiral Architzel. Sir, you are referring to numbers in 
terms of operational use. And, quite frankly, the VH-71 
Increment 1, the additional weight, as well as has to do with 
the aircraft itself would be a different aircraft than the one 
you are talking to when you are talking 30 years of aircraft 
life. That is another factor in the Increment 1, in terms of 
its not being able to make more than approximately, estimates 
now, 1,500 hour life.
    But the overarching consideration was not making the 
requirements needed for the helicopter and the decision to 
cancel Increment 1 and 2 from Secretary Gates.
    Mr. Bartlett. Thank you, Mr. Chairman. I think that the 
original five-year life was not what the plane was expected 
could do. It was just they only needed it for five years until 
they had Increment 2s. But nobody doubts that this plane is 
built as well as other helicopters, and it should have the 
usual 30- , 35- , 40-year life. Should it not?
    General Trautman. My understanding is the systems command 
would have to inspect the airplane and go through a rigorous 
service life extension program, seeking hot spots in areas of 
interest in some order of discussion we had previously about 
the F/A-18 A through D. That work has not been done yet.
    Mr. Bartlett. Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Bartlett. We are trying to be 
generous with the time. But I would hope that we will keep in 
mind we do have a pretty good crowd today, and let's try to 
give everyone a chance to ask their questions.
    The Chair now recognizes the gentleman from Washington 
state, Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. And first, let me 
apologize and prepare everyone, I am bound to--I am ready to 
ask some fairly noncontroversial questions. So I want to send a 
warning to everybody about that.
    But it does have to do with the shortfall. But it has to do 
with the shortfall in the electronic warfare expeditionary 
wing. And right now, we do not yet have an--I do not yet have 
an idea from you all what we plan to do in 2012 to fulfill the 
expeditionary gap. And I would like to have an understanding if 
yet a decision has been made to have the Growler fill that gap; 
or, if--with additional--or, if a decision hasn't been made, 
what kind of timeline are we on to make a decision so we can 
get there, so that by the time the gap is there, we have made a 
decision ahead of time to fill that gap? Who would be the best 
one to answer that?
    Admiral Myers. I will take the first shot, Congressman.
    Mr. Larsen. Sure.
    Admiral Myers. The EA-6B for the Navy is currently planning 
to sunset or sundown their expeditionary capability starting in 
2010 and ending in 2012. So from the period from 2012 to about 
2016 to 2018 the Marine Corps will have the only expeditionary 
ALQ-99 capability out there.
    There is a gap in that the Next Gen Jammer, the follow-on, 
we do not anticipate the initial operating capability on the 
Joint Strike Fighter or an F/A-18G type of aircraft until the 
2018 timeframe. So right now there is an acknowledged gap in 
terms of expeditionary capability that could--or, depending on 
what happens with the sundown of the Marine EA-6s.
    In terms of what are our opportunities to mitigate this 
gap, we still have a hot production line with F/A-18s, and that 
is a hot production line that goes through the next few years. 
I know that there is dialogue, and this is a discussion topic 
in the building. But for the time being, there is no plan to 
recapitalize the Navy EA-18 Growlers in an expeditionary role.
    Mr. Larsen. So, and that gets to the point. At what point 
does it change from a discussion item to an action item?
    Admiral Myers. What I can tell you is that it is an item 
that I know that the Department of Navy is discussing with the 
other services, and I can't answer about the question about 
exactly when there is going to be the next step or when there 
is going to be a dialogue that would lead to a decision either 
to recapitalize or not. Currently, there is no decision to 
recapitalize.
    Mr. Larsen. General Chapman with regards to the EA-6Bs 
flying for the Marine Corps, as I understand, again, you are 
planning to keep those until about 2018, and then one of your 
35 variants will take over the airborne electronic attack. Do I 
have that about right?
    General Trautman. You are close, sir. If I may. Our plan is 
to keep our EA-6Bs going for another decade and sundown the 
last of ours in 2019. We believe that is the prudent course to 
take as we bring F-35 on line. Now, we won't stand up an 
electronic warfare version of the F-35. What we will do is we 
will take advantage of the inherent capabilities resident in 
all F-35 variants across the board. We have also taken steps to 
ensure that next generation jammer is not just a replacement 
pod for the ALQ-99 on the Prowler and Growler, but is also 
going to be a threshold capability on the F-35.
    So by 2019, you should be in a situation where you could 
fly in F-35s in a very low observable mode; or, if called for, 
you could fly F-35s not very low observable with next 
generation jammer pods on them.
    Now, we are also looking at opportunities to not even have 
it be a podded capability, but somehow using conformal antennas 
ideas that are resonant in the analysis of alternates going on 
right now, maybe even make it a very low observable capability 
with that.
    Mr. Larsen. Sure. And I am looking forward to seeing 
results of that. Can you talk a little bit, a very short time, 
but can you demonstrate to me now or to the committee now that 
you are confident that the fleet of Prowlers that you have will 
be flying up until 2019? And, second, General Trautman--I am 
sorry, I can't see from here.
    Admiral Architzel. Admiral Architzel.
    Mr. Larsen. Can you talk a little bit about whether or not 
the timeline on the next generation jammer is going to meet at 
that time line, or when you want to put it on the F-35 and when 
it is ready for being put on the Growlers?
    General Trautman. Yes, sir. First, with regard to the 
Marine Corps' sundown plan a decade from now, the answer is 
yes. And principally because we would be able to take advantage 
of the Navy's sundowning EA-6Bs. So there is a population 
somewhere above 100 to outfit our 32 Prowlers that we want to 
keep flying until 2019.
    In addition, we have funded and will take some of the 
Navy's improved capabilities Sets III, which will improve our 
ability to provide Prowler support to the Joint Force Commander 
for the next decade. So we are very confident that we will be 
all right, despite the fact that our Prowlers are flying at the 
1-1 dwell right now. They are one of the most popular 
capabilities in the expeditionary environment that we have.
    With regard to next generation jammer timeline, I think 
that remains to be seen how quickly that program can come to 
the floor. But about a decade from now I think we should be 
able to do it.
    The ideas are picking up more and more energy and steam in 
recent months. I am surprised but gratified that they are.
    Admiral Architzel. Sir, again to the Growler. As we go 
forward, we have a very successful program meeting all 
performances. It is out of test now, finished from its op eval. 
We will get results coming forward from that in near term.
    The F-12 aircraft, out. We are getting ready to actually go 
forward on first deployment IOC in the aircraft this year.
    As you go forward into the next generation jammer, that is 
an analysis of alternative that is funded. And we will go back. 
And I don't think we should--we can't, that is not what an 
analysis of alternative does. In other words, to predicate what 
the result of that is. There will be alternatives put on the 
table about how to take everyone electronic attack forward. And 
from that analysis of alternatives it will come back to the 
requirements folks to say which way we want to head. And then 
we will proceed with that.
    The timeline in your question is in supporting of the 
Prowler, and that would be somewhere around 2018 timeframe, 
2019 timeframe. I would offer comments from Admiral Myers as 
well.
    Admiral Myers. Well, the analysis of alternatives for the 
Next Gen Jammer, as Admiral Architzel said, is ongoing. There 
is 128 million in that program, originally designed to deliver 
in 2016, and it slid to about 2018 right now. So it is moving 
in the wrong direction in terms of the delivery in time for the 
sunset of the EA-6, to your point, sir.
    Mr. Larsen. Thank you gentlemen. Thank you, Mr. Chairman.
    Mr. Taylor. The Chair thanks the gentleman, and would 
remind him that we are going to try to have a second round 
should the need arise.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    This is a question I guess for both the Navy and the Marine 
Corps. What is the status of the CH-46 right now? And what is 
the time line for that?
    General Trautman. Let me start, sir, since the CH-46 is 
principally a Marine Corps aircraft. It is better than you 
would imagine. I mean, we have done some very wise things with 
the CH-46 over the past decade and a half. We have improved the 
engines through the engine reliability improvement program 
about a decade ago. We have changed out the cockpit, we have 
changed out the drive train. We have spent our dollars wisely 
in the CH-46 and it remains a workhorse today. We have CH-46s 
deployed on our Marine Expeditionary Units around the globe. We 
have them forward deployed in the Third Marine Expeditionary 
Force (III MEF) in Japan and we have them operating in Iraq 
today. Thank goodness the venerable ``Phrog'' is continuing to 
perform just as we had hoped that it would.
    As far as its sundown, as long as we can keep the V-22 
Osprey on track, we hope to be out of the CH-46 business by the 
end of the next decade, and we are on track to do that.
    What we have been able to do, similar to my answer on the 
EA-6B previous, we have been able to take best of breed. As the 
V-22s arrive, now at 30 per year, we have been able to use best 
of breed on the 46 and sundown and put the ones in the boneyard 
that no longer need to be used, so we actually had a pretty 
solid fleet of CH-46s at this time.
    Admiral Architzel. Sir, if I could. It is interesting that 
the Phrog, as we are talking about here, the Navy is out of the 
CH-46 business but I would just share with you all that when I 
was executive officer of the great ship Dwight D Eisenhower 
back in the early 1990s, on a Vertical Replenishment (VERTREP) 
evolution, which I was up on the bridge and counting the 
carriers that were doing it, the first lift of the day was from 
an H-46 bringing a missile load over from the Suribachi 
alongside. That Helo was a year number older than the ship we 
were on. And the first lift had engine stall, lost engine, lost 
lift impaled itself in the back end of the Suribachi. That 
ended the Underway Replenishment (UNREP). So we had to cancel 
the missile offload. We came back and did that later.
    The reason I am telling you that story is that I came back 
to be the Commanding Officer (CO) of the USS Guam in OPH-9 
three years later. Made two deployments with it. On my second 
deployment, the SAR Helo of it came out to be on my detachment 
was that same bureau number that had impaled itself on the back 
end of the Suribachi.
    So I am advocate for keeping things around, but the Phrog's 
time had come and gone, and today we have the--it has been a 
venerable airplane, but it is long past its service life as we 
go forward.
    Mr. Coffman. Admiral, I think you mentioned a new variant 
for the 53. Can both of you tell me where we are with the CH-
53?
    General Trautman. I can start, sir. The CH-53 Kilo is what 
you are referring to. This is an airplane, it is a heavy lifter 
that will replace our existing CH-53 Echos.
    The requirement that we laid out for this airplane was to 
carry 27,000 pounds 110 miles round-trip in a Navy, high, hot 
day. That is about three times what the CH-53 Echo can carry 
today.
    The need for this is because, unfortunately, the Marine air 
ground task force is getting heavier. Gun Laying and 
Positioning System (GLPS) and some other things have caused us 
a degree of concern. But this 53 Kilo will be the load-carrying 
machine that we need.
    The program has resolved, to my knowledge, all of the 
technical risks associated with bulking up and becoming this 
heavy lifter that I described. It got off to a slow start, 
about a year late on preliminary design review. That is going 
to make them late for critical design review. We are in the 
process now of assessing with the program manager and the 
contractor what impact that may have on cost and schedule. Our 
desire is to have initial operation capability of the 53 Kilo 
in around 2016, and we will see if we can hold that as we get 
to more fact-based analysis on the program in the coming two or 
three months.
    Mr. Coffman. Mr. Chairman, I yield back the rest of my 
time.
    Mr. Taylor. The Chair now recognizes the gentleman from 
Connecticut, Mr. Langevin.
    Mr. Langevin. It is still Rhode Island, Mr. Chairman.
    Mr. Taylor. I apologize.
    Mr. Langevin. Gentlemen, thank you very much for your 
testimony today. I just want to turn for a minute to Signals 
Intelligence (SIGINT). The EP-3 is the Navy's only land-based 
signals reconnaissance aircraft, and the EP-3 have been heavy 
engaged in support of operations in Bosnia, Korea, Iraq and 
Afghanistan. And, clearly, the planes are wearing out right 
now. The President's budget contains $12 million for the EP-3 
replacement program, EP(X).
    My question is, what is your plan for replacing these 
critical assets? And where does the EP(X) stand today?
    Admiral Myers. Thank you for your question, sir. The EP-3, 
currently we have 18, and they will be in our inventory through 
the 2020, 2021 timeframe.
    Currently, we are undergoing an analysis of alternatives to 
determine whether or not a follow-on EP(X) would be a manned 
replacement platform or an unmanned or distributed platform or 
series, a family of platforms. So that analysis is ongoing, and 
that is an issue for fiscal year 2011 and POM 12 to make sure 
that we understand and are focused on and funded, so if it is a 
follow-on platform, then we can program for it and make sure 
that it is mature enough before we sunset the EP-3. And if the 
decision is to re-man the EP-3 and keep it in the same manned 
platform, then we need to make a decision by POM 14 to take 
advantage of some of the zone 5 kits, Statistical Sampling 
Inventory Method (SSIM) [AR 310-50], and the outer wing work 
that we have been doing for the P-3.
    Admiral Architzel. This morning, sir, if I could. I 
participated in an acquisition governance meeting, which was on 
the follow-on EP(X), what we would do. And it is at the very 
early stages, as mentioned. This is the early setting of where 
we go from the program and setting requirements up front.
    Part of what we have learned over the past years is 
understanding exactly what it is we want to procure and what 
are the challenges before we go to any kind of procurement 
program.
    So this set the stage for what Admiral Myers said about 
entering into an analysis of alternatives. This is a decision 
to go forward to that, to set in place that motion. So we are 
working closely on the acquisition side with the requirements 
and with the Office of the Chief of Naval Operations (OPNAV), 
the entire OPNAV staff to go forward and the programs to go 
forward, sir, just from an acquisition standpoint.
    Mr. Langevin. So EP(X) is still at the very, very early 
stages of evaluation?
    Admiral Myers. Yes, sir.
    Mr. Langevin. Okay. Turning my attention to another issue. 
I have been off the subcommittee for two years while I was 
serving on Intel. And just for my own knowledge, the V-22 
program had an initial bad start and we lost a number of good 
soldiers in crashes. Can you give me an update on the safety 
record right now of the V-22, and what the reasons were? I 
assume those were from a lot of human error in the flying of 
those birds. Can you give me just an update of the safety 
record right now and how we are doing?
    General Trautman. Sir, if I may take that. Those two 
mishaps you referred to occurred nine years ago, one in April 
nine years ago and the other December not quite nine years ago. 
Those were tragic mishaps. We learned a lot from those mishaps. 
We dug into the airplane, put the airplane through the most 
intensive engineering scrutiny I think of any airplane in the 
Department's history. And thank goodness we did, because the 
proof has been in the way the airplane has performed since 
then. 55,000 hours on V-22s in the fleet, to include the last 
20 months of combat operations in Iraq flying in the most 
austere, hostile environments that you can imagine. V-22s have 
performed miraculously.
    Last Friday, we launched a squadron of V-22s out on a 
Marine Expeditionary Unit sailing towards fight from Carolina, 
and by the fall we will have a squadron of V-22s in 
Afghanistan.
    Since then, thank goodness, the safety record has been 
superb. We have had a couple of minor challenges on the deck 
that we have resolved and we know the causes of those. But, 
beyond that, the safety record has been absolutely superb for 
the last nine years.
    Admiral Architzel. Sir, if I could just to add. Although 
not perhaps as current you want, but you went back and talked 
about the history of the program. And I happened to have been 
the commander of OPTEV for--operational test and evaluation 
force for the retesting of the V-22 as it came back into its op 
eval. And I can tell you that the rigor put in from NAVAIR on 
the tactical side as well as from the Marines in training and 
bringing it in forward was nothing short of impressive as we 
got that through its op eval, and now as you can see the 
results of that in its performance.
    Mr. Langevin. I thank you for your answers and the 
reassurance that the program is working well.
    Thank you, Mr. Chairman. I yield back.
    Mr. Taylor. The Chair thanks the gentleman from Rhode 
Island. Now recognizes the gentleman from California, Mr. 
Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here. I just have a 
really quick question. When it comes to the golden hour in 
Afghanistan, are we good to go now on that?
    General Trautman. Well, the Marine Corps is good to go. As 
you know, sir, the Marine Corps is expert at task organizing to 
provide the right capabilities to the Marine Air Ground task 
force commander that he needs. And as we grow the force in 
Afghanistan from its previous 2,000 up above 10,000, we made 
quite sure that we had the right number of assault support 
platforms in theater to ensure that we can provide the support 
that we need for the Marines.
    Mr. Hunter. So we have met that standard now?
    General Trautman. Well, I believe we will meet that 
standard inside the contiguous battle space that the Marine 
Corps has been given with the Second Marine Expeditionary 
Brigade. I am not sure and I am not up to speed on the rest of 
the Afghanistan at this point.
    Mr. Hunter. But for RC South? I am just asking about the 
Marine Corps.
    General Trautman. For the Second Marine Expeditionary 
Brigade, my understanding is that we can and will meet that 
standard with the assets that we have.
    Mr. Hunter. When we have the Marine Corps surge?
    General Trautman. When the surge is complete. When we 
finish this month's rotation.
    Mr. Hunter. Does that coincide with the V-22 getting there?
    General Trautman. The V-22 will arrive in the fall. Right 
now we have CH-53 Deltas, CH-53 Echos, and UH-1Ns in the battle 
space, and they will provide the capability that we need. We 
are also, as I said, sending a squadron on Marine Expeditionary 
Unit and they are sailing towards the Central Command area of 
operation. So it would be up to the combatant commander whether 
he wanted to employ them in that environment or not.
    Mr. Hunter. Are they going to be using the V-22 for medical 
evacuation (MEDEVAC) or casualty evacuation (CASEVAC)?
    General Trautman. From the Marine Expeditionary Unit?
    Mr. Hunter. No. In the fall.
    General Trautman. In the fall? Absolutely. That is one of 
the main reasons that we lean forward. And as soon as we have 
enough range and depth in the V-22 community, we want to get 
two squadrons.
    Mr. Hunter. What I am trying to set clear is the golden 
hour is going to sink and coincide with the V-22s getting to 
Afghanistan and being used for CASEVAC and MEDEVAC?
    General Trautman. No. That is not true, sir. The golden 
hour inside the Second Marine Expeditionary Brigade's battle 
space will be met with the existing assault support platforms 
that we are putting into theater, is my understanding.
    Mr. Hunter. In the fall?
    General Trautman. No. Now.
    Mr. Hunter. Now.
    General Trautman. Now.
    Mr. Hunter. So it is being met.
    General Trautman. As we grow to 10,000 and more, yes.
    Mr. Hunter. I am not trying to mince words. I am saying, 
you are saying that it will be met. And I am asking, do we have 
the--is the golden hour standard being met now with the Marines 
that we have there now?
    General Trautman. I believe it is met now. Let me take a 
come-back to make sure I am right. I believe it is met now. We 
do not have all of the assault support forces there yet. I 
think we have six more CH-53 Echos to deploy. But the 53 Deltas 
that are in that battle space are quite capable of supporting 
the golden hour inside the Second Marine Expeditionary 
Brigade's battle space. Let me have a take-away to go confirm 
that I am right about that, but I think I am.
    Mr. Hunter. Along those lines, are you happy with the way 
that the infrastructure is being built for air at Camp Bastion 
in Kandahar? Is it going to be able to support you? Because you 
weren't building it. Right? The Air Force is building it and 
you will be using some of it. Right?
    General Trautman. That is right.
    Mr. Hunter. So is it going according to plan to support 
you?
    General Trautman. We will be bedding down our aircraft a 
combination of Kandahar and Bastion. We are working side by 
side in Bastion with the Air Force.
    Mr. Hunter. You are now?
    General Trautman. We are. And we shipped 6 million square 
feet of AM-2 matting to Afghanistan.
    Mr. Hunter. That makes good border fence, by the way.
    General Trautman. I hope it is not being used for that. We 
need to lay it down to create Forward Operating Bases (FOBs), 
Forward Arming and Refueling Points (FARPs), and airfields, and 
I think we are. I know we are.
    We also provided the subject matter expertise for our 
marine wing support squadrons that actually showed both the 
Army and the Air Force how to expeditiously lay down that 
matting. So that progress is being made as best it can be. 
There have been times in the last two months that one of my 
principal concerns was the pace at which this was being done. 
But as I sit here today, I am satisfied that we are on track.
    Mr. Hunter. Thank you.
    Thank you, Mr. Chairman.
    Mr. Taylor. Gentlemen, as you can tell by some of the 
questions, we are facing an affordability problem in the very 
near future.
    For the record, I would like to ask each of your personal 
opinions as to how many aircraft around the world would you 
rate as superior to the F/A-18E/F? If you would name them, name 
the country of origin, and whether they exist, and a ballpark 
figure of how many of them would exist in each of those 
countries.
    Admiral Architzel. So, to answer your question I am an S-3 
aviator, but I will tell you that I do not know today of an 
airplane--the F/A-18 is certainly a superior fighter. There is 
no question about it. So I really don't have the--I can't give 
you a number comparison, but I will tell you that F/A-18E/F 
particularly is a standout fighter among fighters today. But it 
is also not a fifth generation fighter.
    Mr. Taylor. I understand, sir. Admiral Myers, would you 
like to address that?
    Admiral Myers. Yes, sir. And I will say that of all the 
aircraft that are in production from four nations, that I would 
much rather be in the cockpit of an F/A-18E/F than any one of 
those other aircraft.
    Mr. Taylor. General, would you like to offer an opinion?
    General Trautman. Well, I think it is difficult to parse 
among all of the fourth generation airplanes that exist in the 
world. The F/A-18E/F is certainly tied with them. It doesn't 
stand a chance against an F-22 or an F-35, though. And I think 
that is the key reason the Marine Corps is----
    Mr. Taylor. Hopefully we will not be shooting at each other 
any time soon. Again, the question was, nations other than our 
own. And I am asking your professional opinion.
    General Trautman. I think there are airplanes out there 
that our return ratio would not be what we would want for our 
young men and women if we had to go against them. Now, 
hopefully we won't have to go against them.
    Mr. Taylor. Is there any of them that you would care to 
mention at this point?
    General Trautman. MiG-29, for example.
    Mr. Taylor. And are they being produced in any sort of 
significant numbers by any country?
    General Trautman. I don't think so, sir.
    Mr. Taylor. And, again, I am--with that, I am going to 
yield to the gentleman from Missouri, Mr. Akin.
    Mr. Akin. Just a couple more questions. General Trautman, 
my understanding is that the Marine Corps currently has four F/
A-18 fighter squadrons that are supposed to have 40 aircraft 
allocated to them but actually have no aircraft allocated to 
them. And the Marine Corps does not apparently include those in 
the shortfall. And, if so, why did you not include them in the 
shortfall?
    General Trautman. Sir, about three years ago we made a 
proactive decision to cadre two active and two reserve fighter 
attack squadrons. We did this in anticipation of the arrival of 
Joint Strike Fighter. We learned when we transitioned to the V-
22 from our large medium lift population of CH-46s that one 
thing you need to do when you have a large population changing, 
as our tactical aircraft are going to change beginning in 2012, 
is to create a manpower pool from which you can draw, because 
particularly when you are changing from a 46 to a V-22 or from 
a legacy Hornet to a Joint Strike Fighter, it is not a light 
switch; it is a rheostat and you have to have time to train and 
prepare both air crew and maintainers.
    So we set aside those cadre personnel, and now thank 
goodness we did because over the last few months we picked the 
squadron commander for our first fleet readiness squadron VMF-
AP 501, which will stand up beginning this summer. We picked 
the first six aviators that will go into that squadron. We are 
detailing the maintainers that will go into that squadron. And 
beginning in 2012 and 2013, we will bring back those two active 
cadre squadrons as Joint Strike Fighter Squadrons, and that has 
been our plan.
    With regard to the two reserve cadre squadrons, we will 
bring them back three or four, five years into the Joint Strike 
Fighter transition about the time that reserve aviators and 
maintainers are looking for a place to go if they decide to 
remain engaged in the Marine Corps via the Reserves.
    So we think we have got this laid out right, and that is 
why we did what we did.
    Mr. Akin. So, in a sense, your strategic decision of three 
years ago was why you started with four squadrons, you are 
going to go down to two. So, in the transition, you have got 
just less aircraft available to you, so you realized that you 
were at a lesser strength. And you accept that risk because you 
are transitioning from one aircraft to another? That is what I 
think I am hearing you say.
    General Trautman. That is exactly right, sir. These 
transitions are challenging. And that is why we take the 
decision that we took to set aside that manpower pool.
    Mr. Akin. As long as the other plane comes on line, you are 
saying we can live with being at half strength, or some, a few 
years to make that transition. If they are not on line in time, 
then that becomes increasingly problematic, I suppose?
    General Trautman. It does. We are meeting our current 
obligations with the force structure that we have. The 
challenge is, of course, that Marine Tac-Air is at a higher op 
tempo than either the Navy or the Air Force Tac-Air. So in some 
ways, we are playing out the risk on the backs of our Marines. 
And we don't like to do that, but we think it is a proactive 
step that was worth taking in order to get to the Joint Strike 
Fighter in 2012 and 2013.
    Mr. Akin. Okay. So those 40 are not counted in the 
shortfall then that we were talking about before?
    General Trautman. Well, they are not really a shortfall, 
sir. For example, if we decided to have those squadrons up and 
we didn't want to take the manpower, we could take the 30 Lot 
10 and 11 F/A-18Cs that we are putting into preservation and we 
could have those round up those squadrons in the near term if 
we chose to do so. I think that would not be a very wise 
decision, though. I prefer the decision we made.
    Mr. Akin. You are saying there are aircraft around, but 
they are just old?
    General Trautman. Lot 10 and 11. That is right.
    Mr. Akin. You also mentioned the idea of reworking some of 
the F/A-18s. You are saying that is a possibility, depending on 
the analysis of what those look like. The numbers we are seeing 
on that is, is you are looking at about $15 million if you have 
got to put that rework in, and that gets you whatever it is, 
1,500 hours or something. It seems like, to me, that is almost 
costing you twice the cost per hour and a lot less capability 
than if you just got a new F/A-18. Would you ever look at doing 
that?
    General Trautman. I was advised that putting any kind of 
number on the cost of extending a Hornet from 8,000 to 10,000 
at this point would be premature. As I said, we are only 
halfway through phase B of a three-phase process. And until we 
get through that process, there are too many variables 
associated to put a number on it. I haven't heard a number as 
high as 15 million. That is a new one to me. I have heard lower 
numbers.
    Mr. Akin. What is the engine? About 5? Is it 10? What was 
the engine, the central component?
    General Trautman. The center barrel? Yes, sir. We already 
have $1.1 billion in the budget that is already paid for to do 
417 center barrels. So the good news is that is a risk 
mitigator against the challenge we face in order to do the 
service life extensions. And as I said, most of the areas of 
interest are in the center barrel area.
    Mr. Akin. It still costs money, though.
    General Trautman. No doubt, sir. You are exactly right. And 
we will have to make wise, case-by-case, bureau-by-bureau 
number assessments and then decisions about how to expend our--
--
    Mr. Akin. If you had to do the center barrel and you had to 
do the wing sections, what are you talking, actual dollars, to 
do that on a plane?
    General Trautman. Well, for example, if we already have the 
center barrel budgeted. If we went to AMARC as we are doing 
this year to get 24 wings out, we could do both of those for no 
additional dollars. If we had to buy a center wheel wing, I am 
not sure what the current cost of that is. I would have to 
defer to Admiral Architzel or Admiral Myers.
    Admiral Architzel. Sir, I will give it to Admiral Myers in 
a second or two. But what you have to do with the center 
barrel, that is Lot 17 and prior. If you did a center barrel 
replacement--which we funded. And let's take about 6,000 hours. 
For those numbers of Hornets, and I think the number is 
somewhere around 400 plus numbers we have there, that is funded 
in our budget, and we go forward. That runs at about center 
barrel two-and-a-half billion--two-and-a-half million. Excuse 
me. So if you then add in----
    Mr. Akin. Two-and-a-half million for a center barrel. And 
then you have got the functional interoperability architecture 
(FIA) to do the wings.
    Admiral Architzel. The number I have is two-and-a-half, and 
so we will have to get back to you. They are being quoted four-
and-a-half here.
    So the center--if you get the wing section and the center 
fill barrel, it is about 5 million for those. Now, as General 
Trautman says, if you take wings off an existing aircraft 
with--you still have to rework those wings. So you are going to 
have some costs involved. You are absolutely right, sir.
    If you want to look at where we go to get above to the 
8,600 hours and you want to go past that into 10, we have a 
high flying hour inspection. That inspection alone is running 
around about $475 million. That is to get to the point where 
you can open and inspect and look at the airplanes to see what 
you have. And I agree with General Trautman, we don't know what 
we will have in those airplanes. Probably in those, where we 
designed into the center barrel on that Lot 18 and on, we 
should not expect to replace center barrel. But in those areas 
that are fatigued, hot points in the aircraft, we have to do--
we have to extend some work or maybe--depending on what we 
have.
    So fatigue, stress, cracking, or issues on the empanage, or 
tail. And then on top of that you also have to do system work 
on the airplane. So that is I think where the quandary comes 
in, is what is the exact cost of each aircraft. You won't know 
until you open them up and find out what you have, sir.
    Mr. Akin. You basically, I think you made it clear to me 
today that you don't really know what the fighter aircraft 
shortfall is. You are saying it is somewhere--and I thought it 
was variable between two numbers. You said that you can't even 
count on that. When will you know for sure what your shortfall 
is? When will you actually have a number?
    Admiral Myers. The shortfall right now is about 70 
aircraft. And that is based on the analysis that I brought to 
you----
    Mr. Taylor. Would the gentleman yield?
    Mr. Akin. Yes, sir.
    Mr. Taylor. 70 aircraft when, Admiral? Give me a year.
    Admiral Myers. It peaks in the 2016 to 2017 time.
    Mr. Taylor. When does your shortfall kick in? What year?
    Admiral Myers. The shortfall starts to develop in mid to 
later 2013 timeframe. Now, that is--Chairman and Congressman, 
that is based on the analysis that was brought last year. What 
is ongoing right now is, as General Trautman mentioned, we are 
in the second phase of a three-step process and we are refining 
the technical baseline and cost estimates to see exactly what 
we want to SLEP and what is in the realm of the possible.
    What we knew last year was conceptually what the cost would 
be and a preliminary estimate on what it would take. And that 
is why we gave bookends. What we are starting to do now is 
better understand. Last year, when we came to you the 8,600 and 
10,000 numbers, the 69 and 129 was based on 295 aircraft being 
able to be SLAP'd. Right now the number is about 330 aircraft 
that we think might be candidates or are targeted to be SLEP'd. 
But through the summer we are going to have a lot more 
information. And the second phase is set to complete next 
March.
    We have got lots of work to do, and I want to make sure 
that everybody understands that it is not just the SLAP'ing of 
the aircraft that is our focus on mitigating the shortfall. It 
also means that we maintain our buy of the JSF. It means we 
maintain the logistics support of the current fleet. And it 
also means that we maintain the current buy of our F/A-18E/Fs.
    Mr. Taylor. I appreciate the gentleman yielding. Please 
continue.
    Mr. Akin. That--I mean, I have got a chart here that shows 
the number you are talking about, 69 it says here for 17. I 
think that was the Navy.
    Admiral Myers. Yes, sir.
    Mr. Akin. The total number is 125. And then I think the 
chart also says what happens if you can't get to the 10,000 
hours. And then that jumps it to 129 and 243.
    Admiral Myers. Yes, sir.
    Mr. Akin. Have you seen this?
    Admiral Myers. Yes, sir, I have.
    Mr. Akin. That is what I was pulling my numbers off of, was 
this chart.
    Admiral Myers. Yes, sir.
    Mr. Akin. Are these numbers still the best we know for the 
moment?
    Admiral Myers. Those numbers have not been officially 
changed and updated. We are currently doing analysis and 
looking at assumptions that might impact those numbers, and 
that is also ongoing. We are taking a look at----
    Mr. Akin. So the answer to when we will know pretty sure is 
going to be a year or next March. Would we have a pretty good 
handle on it at that point?
    Admiral Myers. We will no a lot more through the summer, 
sir. And through the summer we will also be able to better 
understand what the assumptions are that go into that model in 
terms of our productive ratio or the efficiencies that we use 
on the air wings that are not deployed. There is a lot of 
things that go into the model besides just 44 and the Marine 
Corps requirement, and that is one of the things that the 
Marines and the U.S. Navy are currently undergoing is some an 
understanding of ways that we can more efficiently get aircraft 
out to the warfighter.
    General Trautman. Congressman, if I could add to Admiral 
Myers' excellent answer about the variability. That chart that 
you held up last year is no longer relevant. It is not an 
accurate depiction at this point. And I can just give you the 
simplest example I can is if we have decided to buy additional 
F-35s Bs and Cs compared to last year, which we have done, that 
changes all of those equations, just for an example.
    Mr. Akin. But you could picture yourself in our shoes. We 
got this information from you in March, and I am hearing you 
say that it is increasingly irrelevant right now. It is hard 
for us to get a number. I am just saying, when are we going to 
have something that we can understand what we are planning?
    Admiral Myers. We owe you better and more current 
information. And in March, sir, that was the best that we had. 
And we owe you the benefit of understanding what we think the 
future is going to hold in terms of F-35 production and in 
terms of the ongoing SLAP and SLEP analysis.
    Mr. Akin. So are you saying then the end of this summer you 
think we are going to have some pretty reliable numbers? Or is 
it going to be March of next year? I mean, where are we going 
to be within plus or minus 10 percent of the number?
    Admiral Myers. I will have to get back to you, sir, and 
take that back to our leadership, not only in the fleet, but 
also in the systems command to make sure that we get you a good 
time frame.
    Mr. Akin. We have got to have something to work with. Thank 
you very much. Thank you, Mr. Chairman.
    Mr. Hunter. Will the gentleman yield really quick? I just 
have a quick question listening to this. Wouldn't the numbers 
have already been put together for the internal DOD budget with 
this? Isn't there a number?
    Mr. Taylor. Both very fair questions. I would remind both 
gentlemen that we tend to go through this at the beginning of 
every new administration; that it is my memory that the Bush 
administration did not submit a DOD budget until July of 2001. 
And so although this is taking longer than anyone wished it 
had, there is still a little bit ahead of that mark which was 
eight years ago right now.
    With that, the Chair recognizes the gentleman from 
Maryland.
    Mr. Bartlett. Mr. Chairman, relevant to your question about 
competitive aircraft around the world, it is my understanding 
that the only aircraft we have that might be competitive with 
the latest Russian SU fighter aircraft is the 22. Is that also 
your understanding?
    Admiral Myers. I am not an F-22 pilot, so--and I am not 
read in on a lot of the F-22 programs, sir. So my perspective 
comes from the Navy and what I know of the F/A-18 and for--not 
meant for an open hearing but a more private discussion, that 
is the aircraft I would prefer to be in.
    Mr. Bartlett. I think, Mr. Chairman, it is not a certainty 
anymore that we will always have the best fighter aircraft in 
the world. I think most people now feel that the latest SU 
Russian fighter is probably as good as or maybe better than our 
best plane. And they are selling them. India has bought them.
    Thank you very much.
    Mr. Taylor. Sure. The Chair thanks the gentleman. And for 
the record, since that was Mr. Bartlett's observation, I would 
appreciate you gentlemen getting back to us within two weeks, 
if possible, with how many of those aircraft have been produced 
and how many are around the world. I think is that a fair 
request, gentlemen?
    Admiral Architzel. Sure.
    Mr. Taylor. The Chair now recognizes the gentleman from 
California, Mr. Hunter.
    Mr. Hunter. No more questions.
    Mr. Taylor. Mr. Akin.
    Mr. Akin. No. Thank you.
    Mr. Taylor. Gentlemen, I think it has been a very, very 
productive hearing. I very much appreciate your time. We 
apologize for the delay at the beginning because of votes. But 
I think you have made your case very, very well, and we know we 
have a lot of work to do. Thank you very much for being with 
us. The subcommittee is adjourned.
    [Whereupon, at 4:18 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                              May 19, 2009
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 19, 2009

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                  <all>

</pre></body></html>
